           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   OFFICE OF HEARINGS AND APPEALS
       MEGASITE INFORMATION
          MANAGEMENT AND
        BAR-CODING SYSTEMS

   August 2005     A-12-05-15085




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY
MEMORANDUM

Date:   August 25, 2005                                                         Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Office of Hearings and Appeals Megasite Information Management and Bar-Coding
        Systems (A-12-05-15085)


        OBJECTIVE

        Our objective is to determine whether the Office of Hearings and Appeals (OHA)
        Megasite’s new technology, consisting of an upgraded computer tracking system and
        bar-coding system, effectively tracks folders and provides the technological support to
        better safeguard folders.

        BACKGROUND
        The OHA’s Appeals Council (AC) reviews Administrative Law Judge decisions appealed
        by claimants. The Council decides on approximately 100,000 cases per year. The AC
        consists of Administrative Appeals Judges and is supported by the Office of Appellate
        Operations (OAO). Branches within OAO process disability cases and are supervised
        by branch chiefs. Hearing offices send case folders that have been denied or dismissed
        to the Megasite in Springfield, Virginia. OHA estimates 148,000 folders are stored on
        18,000 shelves in the Megasite.

        The Megasite serves as an off-site active claims storage facility and repository for all
        folders processed by the AC. Folders are retained anywhere from 6 months to 2 years,
        depending on whether the claimant files an appeal at the AC or civil court level. Folders
        are moved between the AC and Megasite during different stages of the appellate
        process. Eventually folders are released to permanent Social Security Administration
        (SSA) storage or SSA payment centers (See Appendices B & C for illustrations of the
        folder receipt and retention process). Work performed in the branches is based
        exclusively on documents in the folder. The Megasite’s ability to control, quickly locate,
        retrieve, and route folders is critical to ensuring the timeliness of processing appealed
        claims.
Page 2 - The Commissioner

We audited the Megasite in Fiscal Year (FY) 20031 and reported that the computer
inventory system, Megasite Case Control System (MSCCS), was losing data and
crashing, and, as a result, OHA staff could not find all requested folders. We tested
both the Megasite’s physical and computerized inventories and we projected that OHA
could not locate as many as 10,100 folders. OHA subsequently installed new computer
and bar-coding equipment.

As mentioned in our prior report, the Megasite upgraded from MSCCS to Enhanced
Megasite Case Control System (eMSCCS) and installed Radio Beacon, a commercial
warehouse management system, in July 2003. OHA later found that eMSCCS was
inadequate for Megasite operations and then implemented Megasite Information
Management System (MIMS) in August 2004. MIMS is a web-based, database system
updated in real-time using Radio Beacon radio-frequency hand held scanners and bar-
code labels. MIMS regularly interfaces with other OHA systems to expedite the folder
receipt process.

RESULTS OF REVIEW
The implementation of new technology allowed OHA to greatly improve its ability to
account for folders stored at the Megasite. Specifically, our audit found:

    •   Inventory accuracy greatly improved and problems discussed in the prior report
        have been addressed.
    •   The inventory tracking system is more technologically advanced and provides
        real-time data, enabling OHA to effectively track and better safeguard folders.
    •   Shelf inventory processes have improved under the new system.
    •   OAO branch chiefs reported an improvement in Megasite service, which they
        claim has positively affected branch operations.
    •   While the system automatically sends emails to folder requesters, additional
        individuals may need to be notified about availability of folders.
    •   Written procedures are needed for key Megasite processes for training and
        reference purposes.

See Table 1 showing an overview in Megasite operations before and after the new
technology was implemented.




1
 SSA Office of the Inspector General, Operations of the Office of Hearings and Appeals Megasite
(A-12-03-13039), February 2004.
Page 3 - The Commissioner

                 Table 1: Overview of Megasite Operations Before and After
                            Implementation of New Technology
                              FY 2003                     Current
    OIG results from testing          Projected as many as 10,100          Inventory accuracy greatly
    inventory samples                 folders listed in MSCCS but unable   improved - error rate immaterial
                                      to locate on shelves                 (too low to project)
    Inventory tracking system         MSCCS – not web-based, many          MIMS – web-based, no crashes,
                                      crashes and downtime                 no downtime

                                      Access limited to Megasite staff     Access available to both
                                                                           Megasite and OAO branch staff

                                      Real-time data not available         Real-time data available
    Shelf inventory process           Results manually recorded on         Results automatically captured in
                                      paper and computerized inventory     the system by scanners
                                      must be manually updated

                                      Results not retained                 Results retained

                                      No accuracy rate available           Accuracy rate of 97% to 99%
    OAO branch satisfaction           Branch chiefs noted Megasite         Branch chiefs noted great
    with Megasite service             needs improvement                    improvement in
                                                                           Megasite service

    Notification of availability of   Only requestor receives              Only requestor receives
    folder from Megasite              notification, via email or phone     notification, via automatic email
                                      from Megasite staff                  from MIMS
    Procedures for key                Given orally or by emails            Given orally or by emails
    Megasite processes

ACCURACY OF FOLDER INVENTORY

We found that the Megasite’s inventory accuracy has greatly improved and the
problems discussed in our prior report have been addressed. To test the Megasite’s
computerized and physical inventories, we selected random samples of 600 folders in
total: 300 folders to test from the system to the shelf and another 300 folders to test
from the shelf to the system.2 We found an immaterial error rate and therefore did not
project our results. For example, of 600 folders, we found 2 folders had a Social
Security number (SSN) that was incorrectly entered into MIMS and one folder that had a
shelf location in MIMS different from the shelf it was pulled from.

INVENTORY TRACKING SYSTEM

MIMS allows OHA to more effectively track and better safeguard folders with the new
web-based tracking system. The new technology saves time and effort of Megasite
staff, reduces the chance for human error, is accessible to both Megasite and OAO
branch staff and provides real-time data. Megasite management stated they are happy


2
    See Scope and Methodology, Appendix D, and Testing of Megasite Inventory, Appendix E.
Page 4 - The Commissioner

with the new technology and said it is a big improvement over MSCCS, which was not
web-based.

The new technology saves time and effort of staff because it does not crash or have
down time, which was a problem with MSCCS. It also saves time when branches
request folders because branch staff request folders via MIMS rather than by email, fax,
or phone calls to Megasite staff.

                     The chance for human error has declined. Scanners transmit folder
    MIMS handles     and shelf identification bar-code information, not SSNs or other
    Megasite needs   sensitive claimant information. Human error during the receiving
    better than      and storing processes was one of the main reasons folders were
    MSCCS            inaccurately tracked in FY 2003. Previously, an employee may have
                     incorrectly transcribed a claimant’s SSN or name on a sheet of
paper.3 Now, if an employee misses scanning a folder on a shelf, controls within the
system enable the scanners to display a message asking whether or not a certain folder
is on a particular shelf.

Furthermore, access to the system is available to OAO branch staff, along with
Megasite staff. Both staffs can view current folder data in MIMS from their workstations.

MIMS real-time data also improves folder tracking and accountability. MSCCS did not
provide real-time data. The new technology provides current information on folder
inventory and locations and folders requested by a branch. Inventory is immediately
updated and recorded as inventories are conducted and results are efficiently retained.
In addition, Megasite management run weekly reports with current information extracted
from MIMS. These reports improve Megasite folder accountability and help assess the
overall inventory of folders (see Appendix F for information included in the reports).

SHELF INVENTORY PROCESS

The shelf inventory process at the Megasite has improved with the use of scanning
technology, real-time update of the inventory system, and recordation and retention of
results.4 The Megasite conducts two types of inventories to ensure accuracy of folder
inventory: 1) a 100 percent inventory, and 2) cycle counts when a folder is being placed
on a shelf or is being sent to another storage facility (see Appendix G for further details
on both inventories).




3
    See Receipt of Folders at the Megasite Flowchart, Appendix B.
4
 In our 2004 report, Operations of the Office of Hearings and Appeals Megasite, we found that Megasite
staff were not retaining documentation on inventories they conducted.
Page 5 - The Commissioner

Anytime a folder is scanned during an inventory, Radio Beacon updates MIMS in real-
time, increasing the inventory accuracy. With scanning, Megasite staff complete
100 percent inventories in 2-4 months, rather than the 6 months that it took in FY 2003.
Employees do not have to write anything down on paper (i.e. when any discrepancies
are noted) nor manually enter reconciliations in the computer systems, as they did in
FY 2003 because Radio Beacon updates MIMS with correct folder locations. In
addition, unlike in FY 2003, Megasite management keeps an electronic spreadsheet of
inventory data and results and updates it as an inventory is conducted. Their results
show an inventory accuracy rate of 97 percent to 99 percent.

SERVICE TO OFFICE OF APPELLATE OPERATIONS BRANCHES

Megasite service to OAO has greatly improved and positively affected branch
operations. As part of our FY 2003 review, we evaluated OAO’s overall satisfaction with
Megasite service prior to implementation of MIMS and interviewed 8 of the 10 branch
chiefs that we interviewed from our prior report.5 At that time, the branch chiefs
suggested that OHA replace MSCCS and install bar-coding. These changes are now
part of MIMS.

MIMS streamlines the folder requesting process and tracks folders more effectively and
efficiently. Therefore, branches receive more folders timelier. Branches also focus
more on their workload instead of tracking down requested folders not received. For
example, branch staff use MIMS to determine if a folder is in the Megasite and to
request folders. Previously, branch requests were made via fax, email, or telephone—
now requests are made via MIMS, which is a more efficient method for both OAO and
Megasite staff.

NOTIFICATION OF AVAILABILITY OF REQUESTED FOLDERS

One of the features under MIMS is an email-based interface between MIMS and the
folder requester. When a requested folder is not available at the time of the request,
and the folder later becomes available, MIMS automatically emails a Notification
Availability message to only the requestor. During our discussions with branch chiefs, a
suggestion was made to improve MIMS in this area because it is important for branches
to process folders as soon as possible. The branch chiefs suggested MIMS could email
a Notification Availability message to another branch employee, in addition to the
requestor, for control purposes and when the requestor may be out of the office. Such
notification could eliminate unnecessary downtimes in the folder receipt process.6



5
 Of the 10 branch chiefs, 1 is no longer a branch chief and 1 has retired. There are a total of 24 branch
chiefs.
6
 Other options are also available for ensuring another party is aware of available folders, including
modifying each employee’s email system so that these MIMS messages are forwarded to another
employee when the requestor is out of the office.
Page 6 - The Commissioner

WRITTEN PROCEDURES

While the Megasite staff were very knowledgeable about duties, management could not
cite any written procedures of key Megasite processes used for training and reference
purposes. During our audit, we found employee instruction on the new technology was
mostly given orally and sometimes via emails. For example, Megasite management
provided us with a written description of how inventories were conducted and how
discrepancies were resolved. However, there are no written procedures on how to
conduct inventories and instructions are given orally. Written procedures should be
documented for key processes such as receiving, storing, locating, retrieving, and
routing folders, and conducting inventories.

CONCLUSION AND RECOMMENDATIONS
The accuracy of the Megasite’s physical and computerized inventories has greatly
improved since our prior review. MIMS has changed Megasite processes for the better,
allowing the Megasite to better track and safeguard folders through the use of real-time
data. Megasite service to the OAO branches has improved and positively affected
branch operations. However, the current notification process could be improved so that
all relevant parties in OAO are notified when a requested file becomes available. In
addition, the Megasite needs written procedures for training and reference purposes.

To ensure a smooth flow of cases and a well-documented inventory and tracking
process, we recommend SSA:

1. Modify existing procedures and/or systems within OAO so that another person in the
   branch, in addition to the individual requestor, receives notification of availability of
   folders.

2. Develop a written manual of Megasite procedures that includes receiving, storing,
   locating, retrieving, and routing folders and conducting inventories, for training and
   reference purposes.

AGENCY COMMENTS

The Agency agreed with both of our recommendations. The full text of SSA’s
comments are included in Appendix H.




                                                 S
                                                 Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Flowchart: Receipt of Folders at the Megasite

APPENDIX C – Flowchart: Megasite Folder Retention Periods

APPENDIX D – Scope and Methodology

APPENDIX E – Testing of Megasite Inventory

APPENDIX F – Information Included in Megasite Weekly Reports

APPENDIX G – Shelf Inventories Conducted at the Megasite: 100 Percent and Cycle
             Counts

APPENDIX H – Agency Comments

APPENDIX I – OIG Contacts and Staff Acknowledgements
                                                    Appendix A

Acronyms
AC       Appeals Council
CCPRB    Court Case Preparation and Review Branch
CPMS     Case Processing and Management System
DPB      Disability Program Branch
eMSCCS   Enhanced Megasite Case Control System
FY       Fiscal Year
MIMS     Megasite Information Management System
MSCCS    Megasite Case Control System
NCC      New Court Case
OAO      Office of Appellate Operations
OHA      Office of Hearings and Appeals
PCC      Potential Court Case
SSA      Social Security Administration
SSN      Social Security Number
                                                                                               Appendix B

Flowchart: Receipt of Folders at the Megasite
        Start




  Hearing held and
 decision is not fully
     or partially
      favorable




    Update Case
   Processing and
 Management System
      (CPMS)



   Send folders
  without fully or
 partially favorable
   decisions to
      Megasite



         Affix
        Radio
       Beacon
       barcode
       label to
        folder


                                 Automatic,
                                   nightly,
 Enter Social Security            interface
 Number (SSN) into
 Megasite Information
                                  between
 Management System                CPMS &
       (MIMS)                       MIMS




                             Once the SSN is            Yes      Scan folder           Scan
                            entered, are MIMS                 barcode label into   shelf location    End
                             fields populated?                     MIMS            barcode label



                                        No


                          Double check entered
                         SSN, type in first 4 letters
                          of claimant’s last name
                              and date of birth
                                                                                                                                                 Appendix C

Flowchart: Megasite Folder Retention Periods
   Start


                                                                                                                              Store
                                                                                                                            folder on
                             Is decision             No                                                                      shelf in
                                                           Send folder to
  Hearing                  fully or partially                                         Enter folder into Megasite            Potential
                             favorable?
                                                             Megasite
                                                                                      Information Management                Request
                                                                                               System                      for Review
                                                                                                                             section
                                      Yes

                          Send folder to
                           effectuating
                           component                                                                                                              After 6 months,
                                                                                                                                            No
                                                                                                                           Request for           send folder out of
                                                                                                                                                                        End
                                                                                                                          Review filed?            Megasite to
                                                                                                                                                      storage

                                                                                                                                 Yes



                               Send folder to             Yes                                Send folder to
                                                                  Is the claim                                           Pull folder from
                             Administrative Law                                            Disability Program
                                                                  remanded?                                                    shelf
                                  Judge                                                        Branches


                                                                           No


                                 Send folder to           Yes       Is decision
                                  effectuating                   fully or partially
                                  component                         favorable?


                                                                           No
                                                                                                                             Store
                                                                                                                           folder on
                                                                Send folder to                                              shelf in
                                                                  Megasite                                                 Potential
                                                                                                                          Court Case
                                                                                                                            section




                                                                                                                                                  After 6 months,
                                                                                                                                            No
                                                                                                                         Lawsuit filed in        send folder out of
                                                                                                                                                                        End
                                                                                                                         federal district          Megasite to
                                                                                                                            court?                    storage


                                                                                                                                  Yes



                          Yes                                                                Send folder to
  Send folder to Office                                         Case heard in
                                   Is the claim                                               Court Case                 Pull folder from
    of Hearings and                                             Federal District
        Appeals
                                   remanded?                                                Processing and                     shelf
                                                                    Court
                                                                                           Review Branches

                                                No

                                                                                                                              Store
                                                                                                                            folder on
                                 Send folder to                                                                              shelf in
                                   Megasite                                                                                   Court
                                                                                                                              Case
                                                                                                                             section




                                                                                                                                                  After 2 years, send
                                                                                       Send folder to              Yes                      No
                                                                                                                         Any request for              folder out of
                                                                                        appropriate
                                                                                                                           the folder?                Megasite to
                                                                                         requester
                                                                                                                                                        storage




                                                                                                                               End
                                                                                Appendix D

Scope and Methodology
To accomplish our objective, we:

    •   Reviewed operations at the Megasite and Office of Appellate Operations (OAO)
        to gain an understanding of how folders are requested, stored and tracked
        between the Megasite and OAO.
    •   Analyzed current policies and procedures for the Megasite and OAO.
    •   Reviewed our prior audit report on the Megasite.1
    •   Interviewed Megasite personnel regarding Megasite operations.
    •   Gained an understanding of the new systems.
    •   Interviewed OAO branch chiefs to document their experience with the previous
        and current inventory systems.
    •   Tested a sample of cases from the shelves to the computerized inventory and
        also from the computerized inventory to the shelves (see Appendix E).
    •   Discussed our results with Megasite staff and resolved any discrepancies.

We performed our field work from October 2004 until March 2005. Our audit included
an evaluation of existing controls, policies and procedures specifically related to
operations of the Megasite and folder retrieval from this facility. The entity audited was
the Office of Hearings and Appeals Megasite within the Office of the Deputy
Commissioner for Disability and Income Security Programs. We performed our audit in
Falls Church and Springfield, Virginia. We conducted our audit in accordance with
generally accepted government auditing standards.




1
 SSA Office of the Inspector General, Operations of the Office of Hearings and Appeals Megasite
(A-12-03-13039), February 2004.
                                                                            Appendix E

Testing of Megasite Inventory
TEST OF PHYSICAL INVENTORY

To test the physical inventory, we traced a randomly selected sample of 300 case
folders physically located at the facility on November 3, 2004, to the Megasite
Information Management System (MIMS). Since we did not manually count the
inventory of folders on November 3, 2004, we relied on Office of Hearings and Appeals’
(OHA) estimate of folders in the Megasite as our universe. Folders are filed on shelves
that are empty or partially empty. To select the folders, we randomly selected
300 shelves from 18,159 shelves available for folder storage at the Megasite. For each
randomly selected shelf, we chose the first folder stored on the left side of the shelf.

                                      Sample                                   Selection
        Universe      Universe Size    Size          Selection Date             Criteria
 All folders in the     148,000        300       November 3, 2004     Shelving Unit Identification
 Megasite                                                             Numbers


In the test of the physical inventory, we found that of the 300 sampled folders:

    •    three had documents inside the folder that did not agree with the Social Security
         number (SSN) on the front cover;
    •    one had a shelf location in MIMS that did not match its actual shelf location from
         where it was pulled;
    •    one had documents inside the folder that did not agree with the claimant’s name
         on the front cover;
    •    one had an unanticipated error in which the SSN was entered incorrectly into
         MIMS; and
    •    all had a claimant name in MIMS that agreed with the claimant name on the front
         cover, and all were in MIMS.

Due to the immaterial amount of errors we did not project our results. We shared each
of these errors with Megasite staff so the folders could be corrected, as appropriate.




                                               E-1
TEST OF COMPUTERIZED INVENTORY
To test the computerized inventory, we traced a randomly selected statistical sample of
300 folders recorded in MIMS as located in the Megasite on November 9, 2004, to their
physical location within the facility.

                             Universe   Sample                             Selection
         Universe              Size      Size         Selection Date        Criteria
 All folders in MIMS coded   158,239      300        November 9, 2004        SSN
 as in the Megasite


In the test of the computerized inventory, we found that of the 300 sampled folders:

   •   all folders but one were found (the one folder not found was not counted as an
       error because MIMS indicated that it was pulled from the shelves on
       November 9, 2004 to go to court);
   •   one had documents inside the folder that did not agree with the SSN on the front
       cover;
   •   one had documents inside the folder that did not agree with the claimant’s name
       on the front cover; and
   •   one had an unanticipated error in which Megasite staff may have entered the
       SSN incorrectly into MIMS.

Due to the immaterial amount of errors we did not project our results. We shared each
of these errors with Megasite staff so the folders could be corrected, as appropriate.




                                          E-2
                                                                               Appendix F

Information Included in Megasite Weekly
Reports
The Megasite Weekly Reports include:

    •   closing inventory for the week;
    •   total cases received by percentage of what component sent the case;
    •   total cases sent by percentage of cases that were sent to Disability Program
        Branches (DPB), Court Case Preparation and Review Branches (CCPRB), other
        components or released to permanent storage;
    •   number of cases sent to the DPB, by branch and by Special Case Code (such as
        ready to work, or a code that needs interim action, or miscellaneous); and
    •   current request for review inventory, by DPB Branch and by Special Case Code.

Below are scanned copies of excerpts from a Megasite Weekly Report. 1




1
 In the scanned page (above left), PCC stands for Potential Court Case and NCC stands for New Court
Case.
                                                                                Appendix G

Shelf Inventories Conducted at the Megasite:
100 Percent and Cycle Counts
100 PERCENT INVENTORY

Megasite management aims to conduct a 100 percent inventory at least twice a year.
To conduct the inventory, Megasite management instructs employees to scan folders on
designated shelves, starting with the first shelf until all shelves available for folder
storage are inventoried. With the Megasite Information Management System (MIMS),
100 percent inventories are completed in 2-4 months, rather than the 6 months that it
took in Fiscal Year (FY) 2003.1 Megasite staff have completed two 100 percent
inventories since MIMS was installed and a third one is underway. Unlike the process
in FY 2003, Megasite management keeps a record of results, which currently shows an
accuracy rate of 97 to 99 percent.

Employees do not have to write anything down on paper (i.e. when any discrepancies
are noted) nor manually enter reconciliations in the computer system, as they did in
FY 2003. Radio Beacon automatically updates MIMS with correct folder locations.

Megasite management provided us with a written description of how the inventories
were conducted and how discrepancies were resolved. However, there are no written
procedures provided to employees on how to conduct inventories and instructions are
given verbally.

Megasite management provided us with reports that show when the inventories were
conducted, the start and completion dates, the count of folders inventoried, and any
discrepancies noted. The reports do not show who conducted the inventories.
However, staff with scanning rights have unique scanning identification codes which
enable management to determine who scanned what folder and when it was scanned.
Megasite management also keeps a spreadsheet of inventory data and updates it as an
inventory is conducted.

CYCLE COUNT INVENTORY

The second type of inventory is a cycle count. This is one of the advantages of using
the scanning technology. In our 2004 report, the Megasite conducted “random audits”
for shelves, which was a more time consuming and tedious process than a cycle count.


1
 SSA Office of the Inspector General, Operations of the Office of Hearings and Appeals Megasite
(A-12-03-13039), February 2004.



                                                 G-1
Random audits required paper, written notations and manual reconciliation to the former
system, the Megasite Case Control System.

Under the new process, Megasite staff conduct cycle counts as a folder is placed on a
shelf or released for permanent storage. MIMS is automatically updated with correct
folder locations, increasing the accuracy of the folder inventory. When a shelf
identification label is scanned, the scanner displays the number of “expected” folders
with their bar-code numbers reading on that shelf, according to MIMS and Radio
Beacon. As a folder’s bar-code label is scanned, the scanner counts down the number
of “expected” folders. The scanner verifies what folders are actually on the shelf and
“adds” new folders just placed there or other folders that were physically on that shelf
but not “expected” to be there.

The cycle count process also “deletes” folders from the shelf for folders that were
“expected” but not physically there. There is a chance an employee will miss scanning
a folder, thereby “deleting” it from the shelf. Megasite management is able to identify
situations were cases have been “deleted” off a shelf and later on “added” back to the
same shelf. Folders in this situation would not have a location in MIMS or be found in
MIMS until they are scanned to the shelf again and counted as “additions.” MIMS has a
program that can identify these deletions that turned into additions, allowing Megasite
management to counsel any employees having trouble with accurately shelving or
scanning folders.




                                          G-2
                  Appendix H

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM                                                                         34238-24-1310


Date:       August 17, 2005                                                        Refer To: S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       Larry W. Dye /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report "Office of Hearings and Appeals Megasite
            Information Management and Bar-Coding Systems" (A-12-05-15085) -- INFORMATION



           We appreciate OIG’s efforts in conducting this review. Our comments on the report are
           enclosed.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff at extension 54636.

           Attachment:
           SSA Response




           COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT


                                                          H-1
REPORT “OFFICE OF HEARINGS AND APPEALS MEGASITE INFORMATION
MANAGEMENT AND BAR-CODING SYSTEMS" (A-12-05-15085)


Thank you for the opportunity to review and comment on the draft report. We agree with the
findings and conclusions presented in the report. We are pleased that the report recognizes that
the Megasite Information Management System (MIMS) has allowed the Office of Hearings and
Appeals to greatly improve its ability to account for folders stored at the Megasite. We also
appreciate that the report lists the shortcomings of the prior system, as presented in the prior OIG
study and shows how the new system addresses and improves each.

Our specific responses to the report's recommendations are provided below.

Recommendation 1

Modify existing procedures and/or systems within the Office of Appellate Operations (OAO) so
that another person in the branch, in addition to the individual requestor, receives notification of
availability of folders.

Response

We agree. We intend to accomplish this without programming changes to MIMS by sending
each branch and component manager instructions on setting up specific local Microsoft Outlook
rules that will direct the automated MIMS email confirmation to the appropriate branch
designee(s).

Recommendation 2

Develop a written manual of Megasite procedures that includes receiving, storing, locating,
retrieving, and routing folders and conducting inventories, for training and reference purposes.

Response

We agree. A comprehensive procedures manual has been under development and is in the
review and comment stage. The manual should be ready for user distribution in early fiscal year
2006.




                                                H-2
                                                                       Appendix I

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, (215) 597-4080

   Michael Maloney, Audit Manager, (703) 578-8844

Acknowledgments
In addition to those named above:

   Ellen Silvela, Auditor

   Brennan Kraje, Statistician

   Annette DeRito, Writer/Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-12-05-15085.
                            DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
